App. 2

OPINION*
PER CURIAM
The District Court entered judgment against
Hemant Bhimnathwala after rejecting his claims con­
cerning the allegedly biased way in which New Jersey’s
child custody laws are applied. We will affirm.
I.
As part of their divorce proceeding, Bhimnathwala
and Lopa Shah negotiated a “Matrimonial Settlement
Agreement” (MSA). According to Bhimnathwala, judi­
cial review and enforcement of the alimony and child
custody provisions of the MSA has long been uneven:
to his detriment, and on the basis of sex.
Invoking the District Court’s jurisdiction under 28
U.S.C. § 1331, Bhimnathwala primarily grounded his
claims in 42 U.S.C. § 1983. For relief, Bhimnathwala
sought, among other things, “return of all child support
paid to ex-wife,” an order directing the “family court to
recompute alimony in [a] gender-neutral way,” and de­
claratory relief.
Bhimnathwala named Shah as a defendant,
along with the State of New Jersey Judiciary (er­
rantly pleaded in the captioned form) and several of
its employees, including four judges. To varying
* This disposition is not an opinion of the full Court and
pursuant to I.O.P. 5.7 does not constitute binding precedent.

App. 3
degrees, defendants Judges Kilgallen, Thornton, and
Kondrup-Coyle had participated in Bhimnathwala’s
divorce case; defendant Chief Justice Rabner, mean­
while, was sued in his administrative capacity.
Shah responded to Bhimnathwala’s complaint, pro
se, with a letter fairly construed as a motion to dismiss.
Bhimnathwala opposed dismissal and filed a motion
for summary judgment on his claims against Shah.
Bhimnathwala hired process servers to effect ser­
vice on the other defendants (collectively, the State De­
fendants), against whom he secured entries of default
under Federal Rule of Civil Procedure 55(a) when they
failed to timely respond. Bhimnathwala followed up
with a motion for default judgment against the State
Defendants, pursuant to Rule 55(b). The State Defend­
ants then appeared and filed a combined opposition to
the motion for default judgment and cross-motion to
both vacate the entries of default under Rule 55(c) and
dismiss the complaint under Rule 12(b)(1) and (b)(6).
The District Court determined that: the default
entries are void because the State Defendants were not
properly served; the State Defendants raised a number
of valid bases for dismissal, including sovereign im­
munity, the statute of limitations, judicial immunity,
and lack of personal involvement in any alleged consti­
tutional violations; and Shah is not a “person” subject
to suit under § 1983. The District Court thus granted
the motions filed by defendants and denied those filed
by Bhimnathwala. This appeal followed.

App. 4
II.
Bhimnathwala raises numerous issues on appeal.1
None of them has merit. In fact, as Bhimnathwala con­
cedes, “he has been unable [tol find an attorney” to aid
in his fight “largely because no attorney admitted to
bar in New Jersey, and now in the Third Circuit, would
risk their livelihood and disbarment for offending the
court” with the claims raised in the complaint. Br. 22.
We will, therefore, address below only some of the is­
sues raised by Bhimnathwala.
We start by assuming, for the sake of argument,
that the District Court abused its discretion in vacat­
ing the defaults entered against the State Defendants
on the particular basis of improper service. Cf United
States v. $55.518.05 in U.S. Currency. 728 F.2d 192,195
(3d Cir. 1984) (“[Wle do not set aside the entry of de­
fault . . . unless we determine that the district court
abused its discretion.”). Even with that assumption,
however, the result in this case would not change.
An entry of default may be vacated upon a show­
ing of “good cause,” Fed. R. Civ. P. 55(c), and the District
Court properly determined in the alternative to its rul­
ing on improper service that the State Defendants
demonstrated good cause by way of multiple merito­
rious defenses, along with the absence of prejudice to
Bhimnathwala. See Dist. Ct. Op. at 12 n.6; cf
$55.518.05 in U.S. Currency. 728 F.2d at 195. In addi­
tion to the defenses correctly applied by the District
Court in granting the State Defendants’ motion to
1 We have jurisdiction under 28 U.S.C. § 1291.

App. 5
dismiss, the action is barred by the Rooker-Feldman
doctrine2 to the extent that Bhimnathwala ties injury
to, and seeks invalidation of, certain rulings in his di­
vorce case. See, e.g.. Br. 23-24 (asking this Court, as
Bhimnathwa did the District Court, to invalidate the
MSA and recalculate child support payments): cf. Allen
v. DeBello. 861 F.3d 433, 438 (3d Cir. 2017) (“RookerFeldman prohibits a federal court from exercising sub­
ject matter jurisdiction in cases brought by state-court
losers complaining of injuries caused by state-court
judgments rendered before the district court proceed­
ings commenced and inviting district court review and
rejection of those judgments.”) (citation and quotation
marks omitted).
We next address whether the District Court erred
in failing to apply Obergefell v. Hodges. 576 U.S. 644
(2015), and Texas Department of Housing and Commu­
nity Affairs v. Inclusive Communities Project. Inc.. 576
U.S. 519 (2015). No such error occurred. Obergefell rec­
ognized as Fourteenth Amendment-protected the fun­
damental right of same-sex couples to marry, and
Inclusive Communities Project held that disparate-im­
pact claims are cognizable under the federal Fair
Housing Act. Those decisions have no bearing on
Bhimnathwala’s case, his creative extrapolations not­
withstanding.
We also address Bhimnathwala’s argument that
the “conduct” of the State of New Jersey Judiciary
2 D.C. Ct. of Appeals v. Feldman. 460 U.S. 462 (1983); Rooker
v. Fid. Tr. Co.. 263 U.S. 413 (1923).

App. 6
“shocks the conscience,” Br. 15 - a reference, perhaps,
to the state-created danger doctrine. Cf Kedra v.
Schroeter. 876 F.3d 424, 436 (3d Cir. 2017). Bhimnathwala did not preserve such an argument in the
District Court, and we generally do not consider an ar­
gument raised for the first time on appeal. See Lloyd v.
HOVENSA. LLC.. 369 F.3d 263, 272-73 (3d Cir. 2004).
Regardless, Bhimnathwala’s complaint contained no
allegations of fact that would remotely support appli­
cation of the state-created danger doctrine.
Finally, we reject Bhimnathwala’s invitation to re­
write New Jersey law in the manner he desires. Com­
pare Allen. 861 F.3d at 437 (identifying in a similar
case the “New Jersey state statute instituting the best
interests of the child standard”) with Br. 23 (seeking a
ruling directing that New Jersey child-custody law be
changed to a “presumption of joint legal custody and
equal physical custody for temporary and final court
orders upon dissolution of a marriage”). “[C]ourts are
not arbiters of policy.” United States v. Safehouse. 985
F.3d 225, 230 (3d Cir. 2021). It may thus behoove
Bhimnathwala to avail himself of the political process,
rather than the judicial one; all the more so if, as
Bhimnathwala contends, he is no longer even subject
to New Jersey’s child custody regime. See Br. 15 (“The
MSA was valid until my younger son turned 18 in
2019, just a couple of months before filing this Com­
plaint on December 12, 2019.”); cf Spokeo. Inc, v. Rob­
ins. 136 S. Ct. 1540, 1547 (2016), as revised (May 24,
2016) (explaining that for a plaintiff to have constitu­
tional standing to challenge a law, his alleged injury

App. 7
must likely be redressable by a favorable judicial deci­
sion on that challenge).
III.
For the reasons outlined above, the District
Court’s judgment will be affirmed.

App. 8
*NOT FOR PUBLICATION*
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
HEMANT G.
BHIMNATHWALA,
Plaintiff,
v.

Civil Action No.
19-21389(FLW)(LHG)
OPINION
(Filed Dec. 9, 2020)

NEW JERSEY STATE
JUDICIARY, FAMILY
DIVISION, et al.,
Defendants.
WOLFSON. Chief Judge:
Pro se Plaintiff Hemant G. Bhimnathwala (“Plain­
tiff”) has filed a Complaint against Defendants Lopa
Shah (“Shah”); the State of New Jersey Judiciary, im­
properly pled as the New Jersey State Judiciary,
Family Division (the “New Jersey Judiciary”); the Hon­
orable Stuart Rabner, Chief Justice of the New Jersey
Supreme Court; the Honorable Lisa P. Thornton,
A.J.S.C.; the Honorable Teresa Ann Kondrup-Coyle,
J.S.C.; the Honorable Honora O’Brien Kilgallen,
J.S.C.; Tonya Hopson; Rebekah Heilman; and Joanne
McLaughlin (collectively, the “State Defendants),1 al­
leging that his constitutional rights were violated in
1 The Court refers to Chief Justice Rabner, Judge Thornton,
Judge Kondrup-Coyle, Judge Kilgallen, Hopson, Heilman, and
McLaughlin, collectively, as the “Individual State Defendants.”

App. 9
the course of his divorce in the New Jersey Superior
Court, Monmouth Vicinage. Before the Court are
Plaintiff’s Motion for Summary Judgment against
Shah, his former wife, and for Default Judgment
against the State Defendants; the State Defendant’s
Cross-Motion to Vacate Default and Dismiss the Com­
plaint pursuant to Federal Rules of Civil Procedure
12(b)(1) and 12(b)(6); and Shah’s Motion to Dismiss.
For the reasons set forth herein, Plaintiff’s Motion for
Default Judgment against the State Defendants is
DENIED, and the State Defendants Cross-Motion
to Vacate and Dismiss the Complaint is GRANTED.
Plaintiff’s Motion for Summary Judgment against
Shah is DENIED. Shah’s Motion to Dismiss is
GRANTED. Plaintiff’s claims are DISMISSED in
their entirety.

I.

BACKGROUND AND PROCEDURAL HIS­
TORY

For the purposes of these motions, the Court ac­
cepts as true the relevant facts gleaned from Plaintiff’s
Complaint and the documents attached thereto.
This action stems from divorce proceedings in the
Superior Court of New Jersey, Monmouth County, be­
tween Plaintiff and his former wife, Shah. Plaintiff and
Shah separated in March 2006, and it appears that
both filed for divorce later that year. (See Compl. n 11,
44.) Judge Kilgallen presided over the divorce pro­
ceedings, and a final Judgment of Divorce (“JOD”)
was entered on February 27, 2008. (Id. M 12, 14.)

App. 10
Incorporated into the JOD was a matrimonial settle­
ment agreement (“MSA”), which provided primary cus­
tody of Plaintiff’s two children to Shah and provided
for certain parenting time for Plaintiff. (See id.
12,
15, 122.) It appears that McLaughlin, a Family Coun­
seling Specialist in the Monmouth County Vicinage
Family Court, was involved in Plaintiff and Shah’s me­
diation and the negotiation of the terms of the MSA.
The MSA has since been enforced in a number of post­
judgment proceedings.
Pursuant to the terms of the MSA, Plaintiff and
Shah were to split custody of their children equally
during the children’s winter break. (Id. 1 102.) In the
winter of 2009, Shah wanted to take the children to In­
dia for the entirety of winter break. (Id.) Plaintiff ob­
jected to the trip because it would cause him to lose his
parenting time. (Id.) While unclear from the Com­
plaint, it appears that Plaintiff filed a motion related
to this dispute and, in response, Judge Kilgallen ruled
that Shah could take the children to India for the en­
tirety of their winter break. (Id.)
Thereafter, in March 2010, Plaintiff filed a motion
to renegotiate the financial settlement set forth in the
MSA in light of changed financial circumstances re­
sulting from the 2008 recession. (Id. f 103.) It appears
that Judge Thornton2 presided over this motion and,
following oral argument, denied Plaintiff’s application.
2 Confusingly, Plaintiff alleges that Judge Kilgallen also con­
sidered the March 2010 motion and denied it on the grounds “that
the court did not keep a copy of the MSA.” (Compl. % 103.)

App. 11
{Id. U 106.) Plaintiff alleges that Judge Thornton did
not provide any reasoning for her decision. {Id.)
Plaintiff also alleges that on November 7, 2018,
Judge Kondrup-Coyle denied his motion to enforce his
rights under the MSA, to have his youngest child visit
him in Chicago for Thanksgiving break. {Id. 108.)
Plaintiff alleges that he had purchased tickets for his
child’s visit in January 2018, and thereafter, in the
summer of 2018, Shah informed Plaintiff that the child
would not be spending Thanksgiving with him. {Id.
H 109.) Thus, on August 17, 2018, Plaintiff filed a mo­
tion to enforce the MSA. {Id. K 110.) Plaintiff alleges
that Judge Kondrup-Coyle did not issue an order re­
solving the motion until November 7, 2018, which, he
claims, deprived him of the opportunity to appeal her
decision. {Id. 112.)
Following Judge Kondrup-Coyle’s denial of Plain­
tiff’s motion, Plaintiff mailed a letter to Hopson, the
Chief EEO/AA officer for the New Jersey Judiciary. {Id.
H 114.) Plaintiff alleges that Hopson is responsible for
“addressing violations of the anti-discrimination policy
of the State of New Jersey Judiciary.” {Id.) In his No­
vember 2018 letter, Plaintiff alleged that fathers suffer
systemic discrimination by New Jersey Family Court
judges and, further, claimed that Judge Kondrup-Coyle
intentionally discriminated against him by ruling in
favor of Shah. {See id. 'flu 112,115.) Hopson responded
to Plaintiff via letter dated March 20, 2019, and stated
that these issues “fall outside the authority of her of­
fice.” {Id. ^1 115.) Plaintiff claims that following his re­
ceipt of this letter, he received a telephone call from

App. 12
Heilman, an ombudsman in the Monmouth County
Family Court. {Id. 126.) Plaintiff claims that Heil­
man “declared that there was no discrimination,”
based on her understanding that women have also
complained that “the court was unfair.” {Id.) Plaintiff
contends that this call was intended to “dissuade [him]
from filing any appeal or seeking relief in federal
courts.” {Id.) On December 5, 2018, Plaintiff mailed a
similar letter to Chief Justice Rabner, in which Plain­
tiff complained of alleged “systemic” discrimination
against fathers. {Id. 117.) Plaintiff alleges that on
December 12, 2018, he received a letter from the New
Jersey Supreme Court Clerk’s office denying any in­
volvement. {Id.)
Plaintiff filed the instant Complaint on December
12, 2019. {See Compl.) In the Complaint, Plaintiff as­
serts claims pursuant to 42 U.S.C. § 1983 for violation
of his constitutional rights. Plaintiff alleges that, pur­
suant to the Equal Protection Clause of the Fourteenth
Amendment, he had the right to equal parenting time
on par with that received by Shah.3 {Id. 81.) Plaintiff
contends that the State Defendants deprived him of
that right by consistently ruling in favor of Shah in
3 Specifically, Plaintiff contends that the Supreme Court’s
decision in Obergefell v. Hodges, 576 U.S. 644 (2015), which held
that same-sex couples may not be denied the fundamental right
to marry under the Due Process and Equal Protection clauses of
the Fourteenth Amendment, also applies to child custody and
child support. Thus, Plaintiff asserts, without any legal basis,
that the Fourteenth Amendment requires a presumption of equal,
joint custody of children in child custody proceedings. (See Compl.
K 24.)

App. 13
resolving their divorce and post-judgment custody dis­
putes. (See id.) Accordingly, Plaintiff seeks the follow­
ing relief: (1) compensatory damages for emotional
distress and damage to his reputation; (2) repayment
of all child support paid to Shah, including interest; (3)
recalculation of the amount of alimony that Shah
should pay to Plaintiff; (3) compensation for Plaintiff’s
loss of parenting time; (4) an injunction requiring the
New Jersey Judiciary to address gender based discrim­
ination in divorce and child custody matters and to
publish statistical data to that effect; (5) punitive dam­
ages; and (6) costs and reasonable attorney fees. {Id. at
35-36.)
On April 12, 2020, Plaintiff filed a request for de­
fault against the State Defendants for their failure to
file an answer or otherwise respond to the Complaint.
(ECF No. 7.) The Clerk of the Court entered default on
April 13, 2020. On January 17, 2020,4 Shah, acting pro
se, filed a letter responding to the Complaint and re­
questing that it be dismissed. (ECF No. 10.) On May
20, 2020, Plaintiff filed a motion for default judgment
against the State Defendants and for summary judg­
ment against Shah. (ECF No. 12.) In opposition, the
State Defendants filed a cross-motion to vacate default
and to dismiss the Complaint pursuant to Rules
12(b)(1) and 12(b)(6). (ECF No. 24.)

4 While Shah’s letter response is dated January 17, 2020, it
was not docketed by the Clerk of the Court until April 29, 2020.

App. 14
II.

STANDARD OF REVIEW
A. Rule 12(b)(1)

Federal Rule of Civil Procedure 12(b)(1) provides
for the dismissal of a proceeding for lack of subjectmatter jurisdiction, see Fed. R. Civ. P. 12(b)(1), includ­
ing lack of jurisdiction due to Eleventh Amendment
immunity. As the Third Circuit has explained “the
Eleventh Amendment is a jurisdictional bar which de­
prives federal courts of subject matter jurisdiction.”
Blanciak v. Allegheny Ludlurn Corp., 77 F.3d 690, 693
n.2 (3d Cir. 1996) (citing Pennhurst State Sch. & Hosp.
u. Halderman, 465 U.S. 89, 98-100, 1 (1984)). Once a
Rule 12(b)(1) challenge is raised, the plaintiff bears the
burden of demonstrating the existence of subject mat­
ter jurisdiction. See McCann v. Newman Irrevocable
Trust, 458 F.3d 281, 286 (3d Cir. 2006). A Rule 12(b)(1)
motion to dismiss is treated as either a “facial or fac­
tual challenge to the court’s subject matter jurisdic­
tion.” Gould Electronics, Inc. v. United States, 220 F.3d
169, 176 (3d Cir. 2000). Under a facial attack, such as
here, the movant challenges the legal sufficiency of the
claim, and the court considers only “the allegations of
the complaint and documents referenced therein and
attached thereto in the light most favorable to the
plaintiff.” Id.
B. Rule 12(b)(6)
Under Federal Rule of Civil Procedure 12(b)(6), a
complaint may be dismissed for “failure to state a
claim upon which relief can be granted.” Fed. R. Civ. P.

App. 15
12(b)(6). When reviewing a motion to dismiss on the
pleadings, courts “accept all factual allegations as true,
construe the complaint in the light most favorable to
the plaintiff, and determine whether, under any rea­
sonable reading of the complaint, the plaintiff may be
entitled to relief.” Phillips u. Cty. ofAllegheny, 515 F.3d
224, 233 (3d Cir. 2008) (quotations omitted). Under
such a standard, the factual allegations set forth in a
complaint “must be enough to raise a right to relief
above the speculative level.” BellAtl. Corp. v. Twombly,
550 U.S. 544,555 (2007). Indeed, “the tenet that a court
must accept as true all of the allegations contained in
a complaint is inapplicable to legal conclusions.” Ash­
croft v. Iqbal, 556 U.S. 662, 678 (2009). “[A] complaint
must do more than allege the plaintiff’s entitlement to
relief. A complaint has to ‘show’ such an entitlement
with its facts.” Fowler v. UPMC Shadyside, 578 F.3d
203, 211 (3d Cir. 2009).
However, Rule 12(b)(6) only requires a “short and
plain statement of the claim showing that the pleader
is entitled to relief” in order to “give the defendant fair
notice of what the ... claim is and the grounds upon
which it rests.” Twombly, 550 U.S. at 555. The com­
plaint must include “enough factual matter (taken as
true) to suggest the required element. This does not
impose a probability requirement at the pleading
stage, but instead simply calls for enough facts to raise
a reasonable expectation that discovery will reveal ev­
idence of the necessary element.” Phillips, 515 F.3d at
234 (citation and quotations omitted); Covington v.
Int’l Ass’n of Approved Basketball Officials, 710 F.3d

App. 16
114, 118 (3d Cir. 2013) (“[A] claimant does not have to
set out in detail the facts upon which he bases his
claim. The pleading standard is not akin to a probabil­
ity requirement; to survive a motion to dismiss, a com­
plaint merely has to state a plausible claim for relief.”
(citation and quotations omitted)).
In sum, under the current pleading regime, when
a court considers a dismissal motion, three sequential
steps must be taken: first, “it must take note of the el­
ements the plaintiff must plead to state a claim.” Con­
nelly v. Lane Constr. Corp., 809 F.3d 780, 787 (3d Cir.
2016) (quotations omitted). Next, the court “should
identify allegations that, because they are no more
than conclusions, are not entitled to the assumption of
truth.” Id. (quotations omitted). Lastly, “when there are
well-pleaded factual allegations, the court should as­
sume their veracity and then determine whether they
plausibly give rise to an entitlement to relief.” Id. (quo­
tations and brackets omitted).
Here, Plaintiff is proceedingpro se. “The obligation
to liberally construe a pro se litigant’s pleadings is
well-established.” Higgs u. AG of the United States, 655
F.3d 333, 339 (3d Cir. 2011); see also Estelle v. Gamble,
429 U.S. 97,106 (1976); Haines v. Kerner, 404 U.S. 519,
52021 (1972). “Courts are to construe complaints so as
to do substantial justice, keeping in mind that pro se
complaints in particular should be construed liberally.”
Alston u. Parker, 363 F.3d 229, 234 (3d Cir. 2004) (inter­
nal quotation marks and citation omitted). “Liberal
construction does not, however, require the Court to
credit a pro se plaintiff’s ‘bald assertions’ or ‘legal

App. 17
conclusions/” Grohs v. Yatauro, 984 F. Supp. 2d 273,
282 (D.N.J. 2013) (quoting Morse v. Lower Merion Sch.
Dist, 132 F.3d 902, 906 (3d Cir. 1997)). In that regard,
“pro se litigants still must allege sufficient facts in
their complaints to support a claim.” Mala v. Crown
Bay Marina, Inc., 704 F.3d 239, 245 (3d Cir. 2013).
“Even a pro se complaint may be dismissed for failure
to state a claim if the allegations set forth by the plain­
tiff cannot be construed as supplying facts to support
a claim entitling the plaintiff to relief.” Grohs, 984
F. Supp. 2d at 282.
III. DISCUSSION
A. State Defendant’s Motion to Vacate De­
fault and Plaintiff’s Motion for Default
Judgment
First, Plaintiff seeks default judgment against the
State Defendants who, he alleges, failed to file an an­
swer or otherwise respond to the Complaint. The State
Defendants, in turn, move to set aside default because
(1) they were not properly served with the Complaint
and (2), if the Court determines service was proper,
good cause exists to vacate default.
Pursuant to Federal Rule of Civil Procedure 55(c),
a court “may set aside an entry of default for good
cause.” Fed. R. Civ. P. 55(c); see also Mrs. Ressler’s Food
Prods, v. KZY Logistics, LLC, 675 F. App’x 136, 139 (3d
Cir. 2017). In considering whether to vacate default, a
court should consider (1) whether the plaintiff will be
prejudiced by a vacatur of default, (2) whether the

App. 18
defendant has a meritorious defense, and (3) whether
the defendant’s culpable conduct led to the entry of de­
fault. See Feliciano v. Reliant Tooling, Co., 691 F.2d
653, 656 (3d Cir. 1982); see also Sourcecorp Inc. v.
Croney, 412 F. App’x 455, 459 (3d Cir. 2011). However,
an entry of default may be set aside without consider­
ation of these factors where the entry of default was
improper. See Gold Kist, Inc. v. Laurinburg Oil Co., Inc.,
756 F.2d 14,19 (3d Cir. 1985); Mettle v. First Union Nat.
Bank, 279 F. Supp. 2d 598, 603 n.3 (D.N.J. 2003) (“As
this Court finds that entry of default against First Un­
ion is void based on the improper service of the sum­
mons and complaint, the Court need not consider the
facts set forth in Gold Kist”). Where default was en­
tered without proper service of the complaint, it is “a
fortiori void, and should be set aside.” Gold Kist, Inc.,
756 F.2d at 19; see also Grand Entertainment Grp. v.
Star Media Sales, Inc., 988 F.2d 476, 493 (3d Cir. 1993)
(finding that district court improperly entered default
where defendants had not been properly served); An­
derson v. Mercer Cty. Sheriff’s Dept., No. 11-7620, 2013
WL 5703615, at *3 (D.N.J. Oct. 17, 2013).
The Court first assesses whether the Individual
State Defendants, i.e., Chief Justice Rabner; Judge
Thornton, Judge Kondrup-Coyle, Judge Kilgallen,
Hopson, Heilman, and McLaughlin, were properly
served. Federal Rule of Civil Procedure 4(e) provides
that an individual may be served by:
(1) following state law for serving a sum­
mons in an action brought in courts of
general jurisdiction in the state where

App. 19
the district court is located or where ser­
vice is made; or
(2) doing any of the following
(A) delivering a copy of the summons
and of the complaint to the individ­
ual personally;
(B) leaving a copy of each at the individ­
ual's dwelling or usual place of abode
with someone of suitable age and dis­
cretion who resides there; or
(C) delivering a copy of each to an agent
authorized by appointment or by law
to receive service of process.
Fed. R. Civ. P 4(e)(l)-(2).5 Because Plaintiff sues the In­
dividual State Defendants in both their individual and
official capacities, he is required to properly serve the
defendants in both capacities. See Micklus v. Carlson,
632 F.2d 227, 240 (3d Cir. 1982) (“Micklus concedes
that the requirements of Rule 4(d)(1) were not met. He
nevertheless argues that once Carlson was properly
served in his official capacity, he was properly before
the court in both individual and official capacities. We
5 The New Jersey Court Rule that governs service of an indi­
vidual is modeled after Rule 4(e) and provides that to serve “a
competent individual if the age of 14 or older,” the summons and
complaint shall be delivered “to the individually personally, or by
leaving a copy thereof a the individual’s dwelling or usual place
of abode with a competent member of the household of the age of
14 or older then residing therein, or by delivering a copy thereof
to a person authorized by appointment or by law to receive service
of process on the individual’s behalf.” N.J. Ct. R. 4:4-4(a)(l).

App. 20
reject this argument.” (citation omitted)); see also
Dougherty v. Dupes, No. 17-1541, 2018 WL 1696651, at
*9 (M.D. Pa. Apr. 6, 2018) (“Jared Dupes is sued in his
individual capacity and his ‘supervisory capacity,’
which the court interprets to mean individual and offi­
cial capacities. Thus, service of original process must
be made on Jared Dupes in both of these capacities.”).
Plaintiff served Judge Thornton, Judge KondrupCoyle, Judge Kilgallen, Heilman, and McLaughlin by
leaving copies of the summons and Complaint with
Bidwell Medley, an Operations Specialist, at the Mon­
mouth County Superior Court in Freehold, New Jersey.
(See ECF No. 6.) Plaintiff additionally sent the sum­
mons and Complaint to these Defendants by certified
mail to the Monmouth County Superior Court. (See id.)
However, this service does not comply with either Rule
4 or the New Jersey Court Rules for service of an indi­
vidual. The Rules require that an individual be served
by either delivering a copy of the summons and com­
plaint to the individual personally, leaving a copy with
a suitable individual at their dwelling, or delivering a
copy to an agent authorized to receive service of pro­
cess. See Fed. R. Civ. P. 4(e). Furthermore, Defendants
contend, and Plaintiff does not refute, that Medley is
not authorized to receive service of process on behalf of
these Defendants. Accordingly, I find that Judge
Thornton, Judge Kondrup-Coyle, Judge Kilgallen,
Heilman, and McLaughlin were not properly served in
either their individual or official capacities.
Nor were Chief Justice Rabner and Hopson
properly served. Plaintiff served Chief Justice Rabner

App. 21
by leaving a copy of the summons and Complaint with
Dawn Bronston, a “judiciary clerk,” at the Richard J.
Hughes Justice Complex in Trenton, New Jersey. (ECF
No. 6.) Plaintiff served Hopson by leaving the sum­
mons and Complaint with Deanna Williams, also a “ju­
diciary clerk,” at the Richard J. Hughes Justice
Complex. Again, this service did not comply with the
rules for serving an individual as there is no indication
that Bronston and Williams were authorized to accept
service on behalf of Chief Justice Rabner and Hopson,
respectively. Therefore, I find that Chief Justice Rab­
ner and Hopson were not properly served with the
summons and Complaint.
Finally, the Court finds that Plaintiff similarly
failed to properly serve the New Jersey Judiciary. Fed­
eral Rule of Civil Procedure 4(j) states that
A state, a municipal corporation, or any other
state-created governmental organization that
is subject to suit must be served by:
(A) delivering a copy of the summons and of
the complaint to its chief executive of­
ficer; or
(B) serving a copy of each in the manner pre­
scribed by that state’s law for serving a
summons or like process on such a de­
fendant.
The New Jersey Court Rules provide that public bod­
ies, other than the State of New Jersey itself, are to be
served by delivering “a copy of the summons and com­
plaint in the manner prescribed by paragraph (a)(1) of

App. 22
this rule on the presiding officer or on the clerk or sec­
retary thereof.” N.J. Ct. R. 4:4-4(a)(8). Here, Plaintiff
served the New Jersey Judiciary by sending a copy of
the summons and complaint to the Honorable Glenn A.
Grant, J.A.D., the Acting Administrative Director of
the New Jersey Courts, by certified mail and by leaving
a copy of the summons and complaint with Dawn
Bronston, a “judiciary clerk” at the Hughes Justice
Complex. (ECF No. 6, at 15; ECF 6-1, at 19.) However,
neither of these attempts effectuated proper service on
the New Jersey Judiciary as Plaintiff did not person­
ally serve Judge Grant nor is there any indication the
Bronston was authorized to accept service on his be­
half.
Accordingly, because Plaintiff failed to properly
serve the State Defendants, the Court vacates the de­
fault entered against them.6 See Anderson, 2013 WL
5703615, at *2. Because the Court vacates the default
against the State Defendants, Plaintiff’s Motion for
Default Judgment is denied as moot.
6 Because default was improperly entered against the State
Defendants, the Court need not consider the factors for vacating
default. See Anderson, 2013 WL 5703615, at *2 (“[A]n entry of de­
fault may be set aside by the court without consideration of these
factors if the default was improperly entered.”). Nonetheless,
even if the Court were to consider the factors, they would weigh
in favor of vacating the default entered against the State Defend­
ants. First, Plaintiff has not demonstrated that he would suffer
any prejudice if default was vacated. Second, as set forth below,
the State Defendants have meritorious defenses to Plaintiff’s
claims. And, finally, the State Defendant’s failure to timely re­
spond to the Complaint was not the result of culpable conduct but,
rather, was the result of Plaintiff’s failure to properly serve them.

App. 23
B. State Defendants’ Motion to Dismiss
The State Defendants additionally seek dismissal
of Plaintiff’s Complaint with prejudice for lack of sub­
ject matter jurisdiction under Rule 12(b)(1) and for
failure to state a claim pursuant to Rule 12(b)(6).
1. Lack of Subject Matter Jurisdiction
The State Defendants contend that this Court
lacks subject matter jurisdiction over Plaintiff’s claims
against the New Jersey Judiciary and against the In­
dividual State Defendants in their official capacities
based on Eleventh Amendment sovereign immunity
and because they are not “persons” under section
1983.7
7 The State Defendants, in a facial challenge to subject-mat­
ter jurisdiction, further contend that the Court lacks subject-mat­
ter jurisdiction over Plaintiff’s Complaint pursuant to the RookerFeldman doctrine. The Rooker-Feldman doctrine bars federal
courts from hearing “controversies that are essentially appeals
from state-court judgments.” Williams v. BASF Catalysts LLC,
765 F.3d 306, 315 (3d Cir. 2014). “Rooker-Feldman ... is a narrow
doctrine, confined to cases brought by state-court losers complain­
ing of injuries caused by state-court judgments rendered before
the district court proceedings commenced and inviting district
court review and rejection of those judgments.” Id. (quotation
marks and citation omitted). The Rooker-Feldman doctrine does
not apply to Plaintiff’s claims, however, because he is not seeking
a review of the state court’s “judgment,” but rather seeks relief for
injuries allegedly caused by the State Defendant’s conduct. See
Great W. Mining & Mineral Co. v. Fox Rothschild LLP, 615 F.3d
159, 167 (3d Cir. 2010) (“When, however, a federal plaintiff as­
serts injury caused by the defendant’s actions and not by the
state-court judgment, Rooker-Feldman is not a bar to federal ju­
risdiction.”). Here, arguably, the Rooker-Feldman doctrine could

App. 24
State sovereign immunity under the Eleventh
Amendment “is a jurisdictional bar which deprives fed­
eral courts of subject matter jurisdiction.” Wright v.
N.J. Dep’t of Educ., 115 F. Supp. 3d 490, 494 (D.N.J.
2015). The Eleventh Amendment provides that “[t]he
judicial power of the United States shall not be con­
strued to extend to any suit in law or equity, com­
menced or prosecuted against one of the United States
by citizens of another state, or by citizens or subjects
of any foreign state.” U.S. Const, amend. XI. In other
words, the Amendment afford states and state agen­
cies immunity from suits brought by citizens in federal
court, regardless of whether legal or equitable relief is
sought. See Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89,100-01 (1984); see also Thorpe v. New
only apply to Plaintiff’s clams against Judge Kilgallen, Judge
Thornton, Judge Kondrup-Cohen, and McLaughlin, as those are
only claims that directly relate to the judgment of divorce. How­
ever, the Complaint alleges that these Defendants intentionally
discriminate against fathers in divorce and custody disputes in
New Jersey’s family courts. (See Compl.
67-70.) In that con­
nection, Plaintiff claims that the Defendants intentionally de­
prived him of his constitutional rights to equal protection and due
process under the Fourteenth Amendment by discriminating
against him based on his sex and favoring Shah in their divorce
proceedings. (Id. M 23-24, 32-33.) In Great Western, the Third
Circuit found that the plaintiff’s section 1983 claim, which al­
leged that his adversaries and state court judges conspired to “en­
gineer [plaintiff’s] defeat in state court,” was not barred by
Rooker-Feldman, because the plaintiff claimed that “ ‘people in­
volved in the decision violated some independent right,’ that is,
the right to an impartial forum.” 615 F.3d at 171. Similarly here,
Plaintiff alleges that his injuries were caused by the State De­
fendants’ bias towards fathers in divorce proceedings. Accord­
ingly, Rooker-Feldman does not bar Plaintiff’s claims.

App. 25
Jersey, 246 F. App’x 86,87 (3d Cir. 2007) (“The Eleventh
Amendment of the U.S. Constitution protects a state or
state agency from a suit brought in federal court by one
of its own citizens regardless of the relief sought... .”).
This immunity extends to state agencies and state of­
ficers acting in their official capacities who act on be­
half of the state. See Regents of the Univ. of Cal. v. Doe,
519 U.S. 425,429(1997).
Here, the Eleventh Amendment bars Plaintiff’s
claims against the New Jersey Judiciary and his
claims against the Individual State Defendants in
their official capacities. It is well-established that state
courts and, by extension, judges and court employees,
“are entitled to immunity under the Eleventh Amend­
ment because they are part of the judicial branch of the
state of New Jersey, and therefore considered ‘arms of
the state.’ ” Dongon v. Banar, 363 F. App’x 153,156 (3d
Cir. 2010); see also Robinson u. N.J. Mercer Cty. Vici­
nage-Family Div., 514 F. App’x 146, 149 (3d Cir. 2013)
(affirming dismissal of claims against county court
pursuant to Eleventh Amendment sovereign immun­
ity). Accordingly, the New Jersey Judiciary and the In­
dividual State Defendants, in their official capacities,
are immune from suit under section 1983 pursuant to
Eleventh Amendment sovereign immunity.®
8 Plaintiff contends that the State of New Jersey has waived
its Eleventh Amendment sovereign immunity by accepting fed­
eral funds under the Child Support Recovery Act of 1992
(“CSRA”), 18 U.S.C. § 228, and § 504 of the Rehabilitation Act, 29
U.S.C. § 794. It is well-established that, under certain circum­
stances, “a state may surrender its immunity by accepting federal

App. 26
For these reasons, Plaintiff’s claims against the
New Jersey Judiciary and the Individual State De­
fendants, in their official capacities, are dismissed for
lack of subject matter jurisdiction.9

funds conditioned on the state’s waiver of immunity, [but] mere
acceptance of federal funds does not cause a state to waive its im­
munity to suit.” A. W. v. Jersey City Public Schools, 341 F.3d 234,
239 (3d Cir. 2014). While acceptance of federal funds under the
Rehabilitation Act does require state agencies to waive sovereign
immunity, that waiver applies only to claims for violation of the
Rehabilitation Act brought against that agency, i.e., claims for
discrimination on the basis of disability. See 29 U.S.C. § 794(a);
see Chitester v. Dep’t of Child Protection & Permanency, No. 1712650, 2018 WL 6600099, at *5 (D.N.J. Dec. 17, 2018) (finding
that state child protection agency waived sovereign immunity for
claims under the Rehabilitation Act). Plaintiff raises no such
claim in his Complaint. Neither did New Jersey waive sovereign
immunity by accepting funds under the CSRA as that statute
does not require such waiver nor does Plaintiff’s Complaint relate
to the CSRA which sets forth criminal penalties for nonpayment
of child support. See 18 U.S.C. § 228.
9 The State Defendants also raise the related argument that
they are immune from liability as they are not “persons” under
section 1983. It is well-established that the state and state enti­
ties are not “persons” for purposes of § 1983, and thus, are not
amenable to suit under that statute. See Will v. Mich. Dep’t of
State Police, 491 U.S. 58, 71 (1989). The Court, however, declines
to dismiss the claims against the State Defendants on this
ground because while an individual acting in his or her official
capacity cannot be sued for monetary damages under 42 U.S.C.
§ 1983, he or she can be sued under the statute for injunctive re­
lief. See id. at 92. Because Plaintiff seeks both monetary and in­
junctive relief in his Complaint, dismissal pursuant to Eleventh
Amendment sovereign immunity applies to both types of relief in
this context.

App. 27
2. Failure to State a Claim
a. Statute of Limitations
The State Defendants argue that certain of Plain­
tiff’s claims are barred by the statute of limitations.
The statute of limitations is an affirmative defense un­
der Rule 8(c). However, in the Third Circuit a limita­
tions defense may be raised in a motion to dismiss
pursuant to Rule 12(b)(6) “only if the time alleged in
the state of a claim shows that the cause of action has
not been brought within the statute of limitations.”
Schmidt v. Skolas, 770 F.3d 241, 249 (3d Cir. 2014)
(quoting Robinson v. Johnson, 313 F.3d 128,134-35 (3d
Cir. 2002)). In other words, “[i]f the bar is not apparent
on the face of the complaint, then it may not afford the
basis for a dismissal of the complaint under Rule
12(b)(6).” Bethel v. Jendoco Constr. Corp., 570 F.2d
1168,1174 (3d Cir. 1978).
Section 1983 has no statute of limitations of its
own, but instead borrows the statute of limitations
from state personal injury torts. Wallace v. Kato, 549
U.S. 384, 387 (2007). Accordingly, here, Plaintiff’s
claims pursuant to § 1983 are governed by New Jer­
sey’s personal injury statute of limitations period,
which dictates that the claim must be brought within
two years of its accrual. See Dique v. N.J. State Police,
603 F.3d 181, 185 (3d Cir. 2010). “Under federal law, a
cause of action accrues ‘when the plaintiff knew or
should have known of the injury upon which the action
is based.’” Montanez v. Sec’y Pa. Dep’t of Corn, 773 F.3d

App. 28
472, 480 (3d Cir. 2014) (quoting Kach v. Hose, 589 F.3d
626, 634 (3d Cir. 2009)).
Plaintiff’s claims against Judge Kilgallen, Judge
Thornton, and McLaughlin, in their individual capaci­
ties, are barred by the statute of limitations. Plaintiff
alleges that Judge Kilgallen presided over his 2007 di­
vorce and two post-judgment proceedings: one in 2009
in which Plaintiff objected to Shah taking their chil­
dren to India for winter break and another in 2010 in
which Plaintiff sought to renegotiate the financial set­
tlement as set forth in the MSA. (Compl.
101-02.)
Plaintiff claims that Judge Kilgallen, in presiding over
these proceedings, deliberately deprived Plaintiff of his
equal visitation rights. Thus, Plaintiff knew or should
have known of his claims against Judge Kilgallen
when the motions were denied. As the latest of Plain­
tiff’s claims against Judge Kilgallen accrued in 2010,
those claims are barred by the two-year limitations pe­
riod. So too are the claims against Judge Thornton. The
only claim against Judge Thornton relates to her dis­
missal of a 2010 motion to renegotiate the MSA filed
by Plaintiff. This claim, accordingly, also falls outside
the limitations period. Finally, Plaintiff’s claim against
McLaughlin, a Family Counseling Specialist, is related
her involvement in the mediation of Plaintiff and
Shah’s divorce in 2007. Again, this conduct falls out­
side the statute of limitations.
Nevertheless, Plaintiff contends that the statute
of limitations does not bar his claims because the
discrimination against him has been “continuous.”
(Compl. 121-22.) The Court construes Plaintiff to

App. 29
argue that because he suffered ongoing injuries as a
result of his judgment of divorce and enforcement of
the MSA, these orders constituted a continuing viola­
tion of his rights. That argument, however, lacks merit.
The continuing violations doctrine is an equitable ex­
ception to the limitations period, which provides that,
“when a defendant’s conduct is part of a continuing
practice, an action is timely so long as the last act evi­
dencing the continuing practice falls within the limita­
tions period.” Cowell v. Palmer Twp263 F.3d 286, 292
(3d Cir. 2001) (quoting Brenner v. Local 514, Unite Bhd.
Of Carpenters & Joiners of Am., 927 F.2d 1283, 1295
(3d Cir. 1991)). However, “[al continuing violation is oc­
casioned by continual unlawful acts, not continual ill
effects from an original violation.” Id. at 293 (quoting
Ocean Acres Ltd. u. Care Cty. Bd. of Health, 707 F.3d
103,106 (4th Cir. 1983)). For example, in Rose u. County
of York, the Third Circuit determined that the continu­
ing violations doctrine did not apply where the plain­
tiff asserted a custody order and its enforcement
violated his civil rights. 262 F. App’x 485, 487 (3d Cir.
2008). Rather, the Third Circuit held that plaintiff’s
claims arose from the alleged ill effects of the original
order. Id. The same holds true here. The continuing vi­
olations asserted by Plaintiff are nothing more than ill
effects from the JOD and MSA, rather than continuing
violations of his civil rights.
Accordingly, the claims against Judge Kilgallen,
Judge Thornton, and McLaughlin are dismissed with
prejudice as barred by the statute of limitations.

App. 30
b. Judicial Immunity
I will also grant the State Defendant’s motion to
dismiss Plaintiff’s claims against Judge Kondrup-Cohen, in her individual capacity, because she is entitled
to absolute judicial immunity. On the other hand, Chief
Justice Rabner, Hopson, and Heilman are not immune
based on judicial and quasi-judicial immunity.
It is well-established “that judges are immune
from suit under section 1983 for monetary damages
arising from their judicial acts.” Gallas v. Supreme
Court of Pa., 211 F.3d 760, 768 (3d Cir. 2000); see also
Mireles v. Waco, 502 U.S. 9,9 (1991) (“A long line of this
Court’s precedents acknowledges that, generally, a
judge is immune from a suit for money damages.”). Fol­
lowing the Supreme Court’s guidance, the lower courts
“must engage in a «two-part inquiry to determine
whether judicial immunity is applicable.” Gallas, 211
F.3d at 768. “First, a judge is not immune from liability
for nonjudicial actions, i.e., actions not taken in the
judge’s judicial capacity.” Id. (quoting Mireles, 502 U.S.
at 11). “Second, a judge is not immune for actions,
though judicial in nature, taken in the complete ab­
sence of all jurisdiction.” Id. “With respect to the first
inquiry, ‘the factors determining whether an act by a
judge is a ‘judicial’ one relate to the nature of the act
itself, i.e., whether it is a function normally performed
by a judge, and to the expectations of the parties, i.e.,
whether they dealt with the judge in his judicial capac­
ity.’” Id. at 768-69 (quoting Stump v. Sparkman, 435
U.S. 349, 362 (1978)). The courts must “‘draw the line
between truly judicial acts, for which immunity is

App. 31
appropriate, and acts that simply happen to have been
done by judges/ such as administrative acts
at 769
(quoting Forrester u. White, 484 U.S. 219, 227 (1988)).
“With respect to the second inquiry, [courts] must
distinguish between acts in the “clear absence of all ju­
risdiction,” which do not enjoy the protection of abso­
lute immunity, and acts that are merely in “excess of
jurisdiction,” which do enjoy that protection. Id. at 769
(citing Stump, 435 U.S. at 356 n.6). “A judge will not be
deprived of immunity because the action [he or she]
took was in error, was done maliciously, or was in ex­
cess of [his or her] authority; rather, [he or she] will be
subject to liability only when [he or she] has acted in
the ‘clear absence of all jurisdiction.’” Id. (quoting
Stump, 435 U.S. at 356-57).
Plaintiff’s claim against Judge Kondrup-Coyle
arises solely from her judicial conduct. Plaintiff alleges
that Judge Kondrup-Coyle, in denying his motion to
enforce his parental rights in November 2018, inten­
tionally deprived him of his right to visitation with his
son and “his equal rights under the Fourteenth
Amendment.” (Compl. UH 108-12.) Even taking as true
Plaintiff’s allegation that Judge Kondrup-Cohen delib­
erately deprived Plaintiff of his right to visitation with
his son, Plaintiff makes no allegation that Judge Kon­
drup-Cohen acted in “clear absence of all jurisdiction.”
Gallas, 211 F.3d at 768. Accordingly, Judge KondrupCohen is entitled to judicial immunity on Plaintiff’s
claims against her.

App. 32
Chief Justice Rabner, Heilman, and Hopson, how­
ever, are not entitled to judicial immunity. Plaintiff’s
claims against these Defendants do not arise form acts
taken in a judicial or quasi-judicial capacity. For judi­
cial immunity to apply, a plaintiff’s claims must arise
from actions taken in the judge’s judicial capacity. Gallas, 211 F.3d at 768. To determine whether an act is
judicial in nature, a court must act “whether it is a
function normally performed by a judge” and whether
the parties “dealt with the judge in his judicial capac­
ity.” Id. at 768-69. It is critical to “draw the line be­
tween truly judicial acts, for which immunity is
appropriate, and acts that simply happen to have been
done by judges,’ such as administrative acts.” Id. at
769. Here, Plaintiff’s claim against Chief Justice Rab­
ner relates solely to his alleged inaction in response to
Plaintiff’s complaints regarding discrimination in
New Jersey’s Family Courts. That inaction was not ju­
dicial in nature, but rather a function of Chief Justice
Rabner’s role as the head of the courts.
Court administrators and judiciary employees,
like Heilman and Hopson, who carry out activities,
which are “an integral part of the judicial process” and
are “charged with the duty of carrying out facially valid
court orders,” are also entitled to immunity and “enjoy
quasi-judicial immunity from liability for damages in
a suit challenging conduct prescribed by that order.”
Addlespurger v. Corbett, 461 F. App’x 82, 85-86 (3d Cir.
2012). Even when sued in their individual, rather than
their official capacities, such individuals may receive
the benefit of quasi-judicial immunity. Hamilton u.

App. 33
Leauy, 322 F.3d 776, 782-783 (3d Cir. 2003). Here, how­
ever, Plaintiff’s claims against Hopson and Heilman do
not relate to conduct “integral to the judicial process”
or carrying out of a valid court order. Rather, Plaintiff’s
claims against them, like his claim against Chief Jus­
tice Rabner, relates solely to their administrative con­
duct, i.e., their response to Plaintiff’s claims of alleged
discrimination. Accordingly, Hopson and Heilman are
not entitled to quasi-judicial immunity, but the claims
against them clearly lack merit.
c. Failure to State a Claim
Plaintiff brings claims against Chief Justice Rab­
ner, Hopson, and Heilman under section 1983 for their
“deliberate actions denying discrimination.”10

10 The State Defendants additionally argue that, to the ex­
tent the Complaint may be construed to assert claims against
them for violations of Titles VI or VII of the Civil Rights Act of
1964, those claims must be dismissed. Title VI provides that “[n]o
person ... shall, on the ground of race, color or national origin, be
excluded from participation in, be denied the benefits of, or be
subjected to discrimination under any activity of program receiv­
ing Federal financial assistance.” 42 U.S.C. § 2000d. Plaintiff,
however, does not allege that he was discriminated against, ex­
cluded from participation in, or denied the benefits of any pro­
gram or service, based on his race, color, or national origin. Nor
can Plaintiff proceed with a claim pursuant to Title VII, which
prohibits discriminatory employment practices based upon an in­
dividual’s “race, color, religion, sex, or national origin.” Desert
Palace, Inc. v. Costa, 539 U.S. 90, 92-93 (2003) (citing 42 U.S.C.
§ 2000e-2(a)(l)). Plaintiff does not allege that he was ever em­
ployed by, or applied for employment with, the New Jersey Judi­
ciary in any capacity. Accordingly, both Titles VI and VII are

App. 34
A plaintiff may have a cause of action under sec­
tion 1983 for certain violations of constitutional rights.
That section specifically provides:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within
the jurisdiction thereof to the deprivation of
any rights, privileges, or immunities secured
by the Constitution and laws, shall be liable
to the party injured in an action at law, suit in
equity, or other proper proceeding for redress,
except that in any action brought against a ju­
dicial officer for an act or omission taken in
such officer’s judicial capacity, injunctive re­
lief shall not be granted unless a declaratory
decree was violated or declaratory relief was
unavailable.
42 U.S.C. § 1983. To state a claim under § 1983, a plain­
tiff must allege the violation of a right secured by the
Constitution or laws of the United States and that the
alleged deprivation was committed or caused by a per­
son acting under color of state law. See Harvey v. Plains
Twp. Police Dep’t, 635 F.3d 606, 609 (3d Cir. 2011); see
also West v. Atkins, 487 U.S. 42, 48 (1988). Further, “[a]
defendant in a civil rights action must have personal
involvement in the alleged wrongs to be liable, and
cannot be held responsible for a constitutional viola­
tion which he or she neither participated in nor
inapplicable to the allegations of Plaintiff’s Complaint, such that
the Court construes the Complaint to assert these claims.

App. 35
approved.” Baraka v. McGreevey, 481 F.3d 187, 210 (3d
Cir. 2007) (internal citations and quotations omitted).
Here, Plaintiff’s sole allegations against Chief
Justice Rabner relate to a December 2018 letter that
Plaintiff sent to Chief Justice Rabner complaining of
“systemic discrimination against fathers” in the Mon­
mouth County Vicinage Family Court.11 (Compl. 5119,
117-18.) Plaintiff claims that Chief Justice Rabner “de­
nied any role” in the alleged discrimination. (Id. 51117.)
Distilling Plaintiff’s claim against Chief Justice Rab­
ner to its essence, Plaintiff contends that Chief Justice
Rabner has failed to investigate and address
11 To the extent the Complaint can be construed to assert a
claim for supervisory liability against Chief Justice Rabner, it
similarly fails to state a claim. Generally, personal involvement
by the defendant in the alleged constitutional violation is central
to a § 1983 claim, and liability cannot rest on a theory of respondeat superior. See Chauarriaga v. N.J. Dep't of Corr., 806
F.3d 210, 222 (3d Cir. 2015). Rather, there are two potential the­
ories of supervisory liability under section 1983: (1) defendants
may be sued as policy makers “if it is shown that such defendants,
‘with deliberate indifference to the consequences, established and
maintained a policy, custom, or practice which directly caused
[the] constitutional harm,’” A.M. ex rel. J.M.K. u. Luzerne Cty.
Juvenile Detention Ctr., 372 F.3d 572, 586 (3d Cir. 2004), or (2) a
supervisor may be personally liable under § 1983 if he or she “par­
ticipated in violating the plaintiff’s rights, directed others to vio­
late them, or, as the person in charge . . ., had knowledge of and
acquiesced in his subordinates’ violations.” Baker v. Monroe Twp.,
50 F.3d 1186,1190-91 (3d Cir. 1995). The Complaint fails to state
a claim under either theory as it is devoid of any allegation that
Chief Justice Rabner implemented a policy of discriminating
against fathers in divorce proceedings or had knowledge of the
alleged violation of Plaintiff’s constitutional rights and acqui­
esced in those violations.

App. 36
allegations of discrimination against fathers in New
Jersey’s Family Courts. (See id.
117-18.) Even if
these allegations could form a basis for a section 1983
claim, Plaintiff fails to allege that Chief Justice Rabner’s inactions personally caused Plaintiff’s injuries.
See Baraka, 481 F.3d at 210. Plaintiff’s claim against
Hopson fails for the same reason. The only allegations
against Hopson similarly relate to Hopson’s response
to a written complaint from Plaintiff regarding alleged
discrimination against fathers. Plaintiff’s contends
that Hopson’s failure to address these issues violated
the “Anti-Discrimination Policy of the State of New
Jersey.” (Compl. n 114-15.) These allegations, how­
ever, fail to identify how Hopson was personally in­
volved in any violation of Plaintiff’s constitutional
rights. As such, Plaintiff cannot state a claim for relief
against either Chief Justice Rabner or Hopson.
Plaintiff’s allegations against Heilman are
equally deficient. Plaintiff alleges that Heilman, an
ombudsman in the Monmouth County Vicinage Family
Court, was copied on the letter Plaintiff sent to Hopson. (Compl. 126.) Plaintiff claims that Heilman, in
response to his letter, called him and “declared that
there was no discrimination.” (Compl. 126.) Plaintiff
speculates that the purpose of the call “was to dissuade
[him] from filing any appeal or seeking relief in [the]
federal courts.” (Id.) Again, Plaintiff’s allegations fail
to identify how Heilman’s conduct violated his consti­
tutional rights or indicate how she was personally in­
volved in any such violations. Accordingly, the claims
against her are dismissed for failure to state a claim.

App. 37
3. Plaintiff’s Motion for Summary
Judgment against Shah and Shah’s
Motion to Dismiss
Finally, the Court considers Plaintiff’s Motion for
Summary Judgment against Shah. Plaintiff contends
that summary judgment on his claim against Shah is
appropriate because there is no dispute of material
fact that Plaintiff was “arbitrarily denied equal protec­
tion under the law” and that Shah conspired with the
State Defendants to deny Plaintiff of his right to equal
protection. (See ECF No. 12, at 1.) While Shah did not
file a response to Plaintiff’s motion for summary judg­
ment, the Court construes Shah’s response to the Com­
plaint, filed in letter form, as a motion to dismiss the
claims against her. (See ECF No. 10, at 1 (requesting
that the Complaint be dismissed).)
Plaintiff has not demonstrated that he is entitled
to judgment against Shah as a matter of law. In the
Complaint, Plaintiff alleges that Shah deprived him of
his right to equal protection under the Fourteenth
Amendment by seeking primary custody of their chil­
dren in the divorce proceeding, in violation of section
1983. Plaintiff, however, cannot state a claim for relief
against Shah under section 1983, let alone demon­
strate that he is entitled to judgment as a matter of
law. To state a claim under section 1983, a plaintiff
“must establish that she was deprived of a federal con­
stitutional or statutory right by a state actor.” Kach,
589 F.3d at 646 (emphasis added). While there are cer­
tain circumstances in which a private party may qual­
ify as a state actor, i.e., if she “conspires with a state
official,” Walsh v. Walsh, 763 F. App’x 243, 246 (3d Cir.

App. 38
2019), “merely resorting to the courts and being on the
winning side of a lawsuit does not make a party a co­
conspirator or a joint actor with the judge.” Dennis v.
Sparks, 449 U.S. 24, 28 (1980). Here, Plaintiff, in conclusory terms, claims that Shah “aided, abetted, and
conspired” with the State Defendants to violate his
constitutional rights. However, Plaintiff fails to allege
any facts that would demonstrate that Shah, a private
individual, conspired with any of the State Defendants.
Because Plaintiff has not shown that Shah is a state
actor, he cannot proceed with a section 1983 claim
against her. Accordingly, Plaintiff’s Motion for Sum­
mary Judgment against Shah is denied and his claim
against Shah dismissed.
IV. CONCLUSION
For the reasons set forth herein, Plaintiff’s Motion
for Default Judgment against the State Defendants is
DENIED; the State Defendants’ Motion to Vacate De­
fault is GRANTED; the State Defendants’ Motion to
Dismiss is GRANTED; Plaintiff’s Motion for Sum­
mary Judgment against Shah is DENIED; and Shah’s
Motion to Dismiss is GRANTED. Plaintiff’s Com­
plaint is, therefore, dismissed in its entirety.
DATED: December 9, 2020
/s/ Freda L. Wolfson
Freda L. Wolfson
U.S. Chief District Judge

App. 39
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-3526
HEMANT G. BHIMNATHWALA,
Appellant
v.
JUDICIARY OF THE STATE OF NEW JERSEY,
FAMILY DIVISION; LOPA S. SHAH; HONORA
O’BRIEN KILGALLEN; JOANNE MCLAUGHLIN;
LISA P. THORNTON; TERESA A. KONDRUPCOYLE; TONYA HOPSON; STUART RABNER;
REBEKAH HEILMAN
On Appeal from the United States District Court
for the District of New Jersey
(D.C. No. 3-19-cv-21389)
District Judge: Honorable Freda L. Wolfson
SUR PETITION FOR REHEARING
(Filed Jul. 19, 2021)
Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN, HARDIMAN, GREENAWAY, JR.,
SHWARTZ, KRAUSE, RESTREPO, BIBAS, PORTER,
MATEY, and PHIPPS, Circuit Judges

App. 40
The petition for rehearing filed by Appellant in the
above-entitled cases having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the cir­
cuit in regular active service, and no judge who con­
curred in the decision having asked for rehearing, and
a majority of the judges of the circuit in regular service
not having voted for rehearing, the petition for rehear­
ing by the panel and the Court en banc, is denied.
BY THE COURT,
s/ Chervl Ann Krause
Circuit Judge
Dated: July 19, 2021
CJG/cc: Hemant G. Bhimnathwala

